No. _________
IN THE SUPREME COURT OF THE UNITED STATES

TOMAS MARTINEZ-RODRIGUEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-11248
Summary Calendar

United States Court of Appeals
Fifth Circuit

FILED
June 18, 2020

UNITED STATES OF AMERICA,
Plaintiff-Appellee

Lyle W. Cayce
Clerk

v.
TOMAS MARTINEZ-RODRIGUEZ,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-168-1
Before KING, GRAVES, and WILLETT, Circuit Judges.
PER CURIAM: *
Tomas Martinez-Rodriguez pleaded guilty to illegal reentry by a
deported alien. Because Martinez-Rodriguez’s prior deportation followed his
conviction for a felony, he was subject to an enhanced statutory maximum
sentence of ten years and an enhanced statutory supervised release range of
not more than three years. See 8 U.S.C § 1326(b)(1); 18 U.S.C. § 3583(b)(2).
The district court sentenced him within the guidelines range to ten months of

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

No. 19-11248
imprisonment, followed by two years of supervised release.

Martinez-

Rodriguez was released from custody in March of 2020 but remains on
supervised release. See United States v. Lares-Meraz, 452 F.3d 352, 355 (5th
Cir. 2006).
In this appeal, Martinez-Rodriguez contends that the district court erred
by sentencing him beyond the statutory maximum permitted by § 1326(a)
based on the fact of a prior felony conviction that was neither pleaded in the
indictment, admitted by him, or found by a jury beyond a reasonable doubt.
He also argues that his guilty plea was invalid because he was not admonished
that the prior-felony provision of § 1326(b)(1) could not be used to enhance his
sentence unless his prior felony conviction was submitted to a jury and proved
beyond a reasonable doubt. He concedes that these issues are foreclosed by
Almendarez-Torres v. United States, 523 U.S. 224 (1998), but he seeks to
preserve the issues for future review. The Government moves for summary
affirmance or, alternatively, for an extension of time in which to file a merits
brief.
The parties are correct that Martinez-Rodriguez’s arguments are clearly
foreclosed by Almendarez-Torres. See United States v. Pineda-Arrellano, 492
F.3d 624, 625 (5th Cir. 2007); United States v. Wallace, 759 F.3d 486, 497 (5th
Cir. 2014); see generally Groendyke Transp., Inc. v. Davis, 406 F.2d 1158, 1162
(5th Cir. 1969).

Accordingly, the motion for summary affirmance is

GRANTED. The Government’s alternative motion for an extension of time is
DENIED. The judgment is AFFIRMED.

2

APPENDIX B

Case 4:19-cr-00168-O Document 33 Filed 11/15/19

Page 1 of 4 PageID 73

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:19-CR-00168-O(01)
U.S. Marshal’s No.: 94043-479
Michael Levi Thomas, Assistant U.S. Attorney
Michael Lehmann, Attorney for the Defendant

TOMAS MARTINEZ-RODRIGUEZ

On July 3, 2019 the defendant, TOMAS MARTINEZ-RODRIGUEZ, entered a plea of guilty as to Count
One of the Indictment filed on May 22, 2019. Accordingly, the defendant is adjudged guilty of such Count, which
involves the following offense:
Title & Section

Nature of Offense

Offense Ended

Count

8 U.S.C. § 1326 (a) and (b)(1)

Illegal Reentry After Deportation

10/11/2016

One

The defendant is sentenced as provided in pages 2 through 3 of this judgment. The sentence is imposed
pursuant to Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission pursuant to Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 as to Count One of the Indictment
filed on May 22, 2019.
The defendant shall notify the United States Attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid.

Sentence imposed November 14, 2019.

____________________________________________
REED O’CONNOR
U.S. DISTRICT JUDGE

Signed November 15, 2019.

Case 4:19-cr-00168-O Document 33 Filed 11/15/19

Page 2 of 4 PageID 74

Judgment in a Criminal Case
Defendant: TOMAS MARTINEZ-RODRIGUEZ
Case Number: 4:19-CR-00168-O(1)

Page 2 of 4

IMPRISONMENT
The defendant, TOMAS MARTINEZ-RODRIGUEZ, is hereby committed to the custody of the Federal
Bureau of Prisons (BOP) to be imprisoned for a term of TEN (10) months as to Count One of the Indictment
filed on May 22, 2019.
The defendant is remanded to the custody of the United States Marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of TWO
(2) years as to Count One of the Indictment filed on May 22, 2019.
As a condition of supervised release, upon the completion of the sentence of imprisonment, the
defendant shall be surrendered to a duly-authorized immigration official for deportation in accordance with the
established procedures provided by the Immigration and Nationality Act, 8 USC § 1101 et seq. As a further
condition of supervised release, if ordered deported or removed, the defendant shall remain outside the United
States.
In the event the defendant is not deported immediately upon release from imprisonment, or should the
defendant ever be within the United States during any portion of the term of supervised release, the defendant
shall also comply with the standard conditions contained in the Judgment and shall comply with the mandatory
and special conditions stated herein:
( 1)
( 2)
( 3)
( 4)
( 5)
( 6)
( 7)

( 8)
( 9)
(10)
(11)

not leave the judicial district without the permission of the Court or probation officer;
report to the probation officer as directed by the Court or probation officer and submit a truthful
and complete written report within the first five (5) days of each month;
answer truthfully all inquiries by the probation officer and follow the instructions of the probation
officer;
support the defendant's dependents and meet other family responsibilities;
work regularly at a lawful occupation unless excused by the probation officer for schooling,
training, or other acceptable reasons;
notify the probation officer within seventy-two (72) hours of any change in residence or
employment;
refrain from excessive use of alcohol and not purchase, possess, use, distribute, or administer any
narcotic or other controlled substance, or any paraphernalia related to such substances, except as
prescribed by a physician;
not frequent places where controlled substances are illegally sold, used, distributed, or
administered;
not associate with any persons engaged in criminal activity and not associate with any person
convicted of a felony unless granted permission to do so by the probation officer;
permit a probation officer to visit the defendant at any time at home or elsewhere and permit
confiscation of any contraband observed in plain view by the probation officer;
notify the probation officer within seventy-two (72) hours of being arrested or questioned by a law
enforcement officer;

Case 4:19-cr-00168-O Document 33 Filed 11/15/19

Page 3 of 4 PageID 75

Judgment in a Criminal Case
Defendant: TOMAS MARTINEZ-RODRIGUEZ
Case Number: 4:19-CR-00168-O(1)

(12)
(13)

Page 3 of 4

not enter into any agreement to act as an informer or a special agent of a law enforcement agency
without the permission of the Court; and,
notify third parties of risks that may be occasioned by the defendant's criminal record or personal
history or characteristics, and permit the probation officer to make such notifications and to
confirm the defendant's compliance with such notification requirement, as directed by the
probation officer.
In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the U.S. probation officer;
report in person to the U.S. Probation Office in the district to which the defendant is released from custody
of the Federal Bureau of Prisons, or in which the defendant makes entry into the United States, within 72
hours of release or entry;
take notice that the mandatory drug testing condition is suspended, based on the court's determination that
the defendant poses a low risk of future substance abuse; and,
comply with the requirements of the Sex Offender Registration and Notification Act (42 U.S.C. § 16901,
et seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration
agency in which the defendant resides, works, is a student, or was convicted of a qualifying offense.
FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial
resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

Case 4:19-cr-00168-O Document 33 Filed 11/15/19

Page 4 of 4 PageID 76

Judgment in a Criminal Case
Defendant: TOMAS MARTINEZ-RODRIGUEZ
Case Number: 4:19-CR-00168-O(1)

Page 4 of 4

RETURN
I have executed this judgment as follows:

Defendant delivered on _____________________ to ___________________________________
at ________________________________________________, with a certified copy of this judgment.

United States Marshal
BY
Deputy Marshal

